SUPREME COURT
UNITED STATES

DANY L. BRANDAO,
Petitioner,

UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The above-named Petitioner requests leave to file the attached petition
for a writ of certiorari without prepayment of costs.
He further requests permission to proceed informa pauperis. Appellant
has previously been granted leave to so proceed in the Circuit Court of
Appeals, and counsel was appointed, under the Criminal Justice Act. See 18
U. S. C. ยง3006A.

Isl Arza Feldman
Arza Feldman

